May 13, 2010

DAVID E. WILLIAMS
VICE PRESIDENT, ENGINEERING

JORDAN SMALL
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Audit Report – Automated Package Processing System Equipment
Maintenance Opportunities (Report Number DA-AR-10-003)

This report presents the results of our self-initiated audit of Automated Package
Processing System (APPS) Equipment Maintenance Opportunities (Project Number
09YG044DA000), which addresses both operational and financial risks. Our objective
was to identify opportunities to reduce preventive maintenance workhours through the
U.S. Postal Service’s Electronic Condition Based Maintenance (eCBM) program. See
Appendix A for additional information on this audit.

In July 2004, the Postal Service began deploying APPS machines, which sort small
packages and Priority Mail. At the time of our review there were 73 active APPS
machines nationwide1 located at 62 facilities. APPS candidate mail includes packages
and bundles (letters or flats) of up to 25 pounds.2 Mail processed on APPS machines
requires culling or removal of non-candidate mail prior to placement on the machine in
accordance with the APPS Methods Guide.3 Removing out-of-specification mailpieces
(or “culling”) reduces potential jams, which optimizes machine performance.

Conclusion

During a 2-year period ending September 30, 2009, Postal Service processing facilities
equipped with APPS machines exceeded estimates for preventive maintenance by
85,958 workhours4. eCBM requires that maintenance hours be aligned with machine
usage and establishes an expected level of maintenance based on machine throughput.
The most frequent causes cited by maintenance managers for excessive workhours
were jams occurring too frequently due to poorly culled5 mail and the inability in some

1
  According to eMARS inventory data, there were 73 active and 5 inactive APPS machines assigned to processing
operations nationwide.
2
  Maximum dimensions are 15” high, 22” wide, and 18” long. Minimum dimensions are .05” high, 3” wide, and 3.5”
long.
3
  APPS Methods Guide, June 2006.
4
  During fiscal year (FY) 2009, 43 of 62 facilities (or 69 percent) equipped with APPS exceeded eCBM estimates.
5
  Culling is removing and separating mail by type and characteristic.
Automated Package Processing System                                   DA-AR-10-003
 Equipment Maintenance Opportunities


cases to incorporate the eCBM checklist. We noted that sites operating within eCBM
workhour standards attributed success to maintaining a well-trained staff, cooperating
with operations to ensure candidate mail is processed according to specifications, and
generating eCBM checklists early in the day.

As a result of using more workhours than necessary, we estimate the Postal Service
incurred excessive maintenance costs of $3.5 million for fiscal years 2008 and 2009.
Furthermore, we estimate the Postal Service can avoid $2.4 million in overtime costs
over the next 2 years by maintaining the APPS within eCBM standards. See Appendix B
for our detailed analysis of this issue.

We found that the manager, Maintenance Policies, has launched initiatives to address
each of the causes for excessive maintenance, except for a solution to eliminate
frequent jams due to poorly culled mail.

We recommend the vice president, Engineering, in coordination with the vice president,
Network Operations:

1. Schedule stand-up talks at Automated Package Processing System (APPS) sites to
   reinforce the importance of operations complying with the APPS Methods Guide for
   culling candidate mail prior to mail processing

2. Establish a control to track preventive maintenance workhours to ensure compliance
   with eCBM requirements.

Management’s Comments

Management agrees with our findings, monetary impact and two recommendations and
is taking the following actions to implement corrective measures:

          Recommendation 1 – Network Operations will provide stand-up service talks
           to all mangers and all APPS employees. They expect to complete this
           initiative by June 30, 2010.

          Recommendation 2 – Maintenance Policies and Programs (MPP) will revise
           the eCBM task list to accommodate work requirements for single and dual
           sided configurations. MPP will also establish a control to track preventive
           maintenance work hours to assist field sites in managing performance within
           20 percent of eCBM requirements. A report reflecting compliance will be
           provided to Area Managers of Maintenance Operations for necessary action.
           Management expects to complete initiatives by Quarter 4, FY 2010.

We have included management comments, in their entirety, in Appendix D.




                                           2
Automated Package Processing System                                  DA-AR-10-003
 Equipment Maintenance Opportunities


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

           E-Signed by Mark Duda
      VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick Donahoe
    Steven J. Forte
    Edward L. Gamache
    Sally K. Haring




                                           3
Automated Package Processing System                                                        DA-AR-10-003
 Equipment Maintenance Opportunities


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In July 2004, the Postal Service began deploying APPS machines, which sort small
packages and Priority Mail. At the time of our review there were 73 active APPS
machines nationwide located at 62 facilities. APPS candidate mail consists of packages
and bundles (letters or flats) of up to 25 pounds. Mail processed on APPS machines
requires culling or removal of non-candidate mail prior to placement on the machine in
accordance with the APPS Methods Guide. Removing out-of-specification mailpieces
(or “culling”) reduces potential jams, which optimizes machine performance.

Preventive maintenance is the scheduled, systematic servicing of equipment to
maximize operating conditions. In October 2004, condition-based preventive
maintenance — or electronic Conditional Based Maintenance (eCBM) — guidelines
were introduced to maintain processing equipment, including APPS. In December 2005,
the Postal Service introduced eCBM guidelines when it started to use the Electronic
Maintenance Activity Reporting and Scheduling (eMARS) as the support system for
eCBM. eMARS facilitates eCBM by creating and maintaining preventive maintenance
task checklists. eCBM generates preventive maintenance tasks based on machine
throughput.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities to reduce APPS preventive maintenance
workhours through the Postal Service’s electronic condition-based maintenance
program.

To accomplish this objective, we collected actual FY 2008 and 2009 preventive
maintenance workhour data for APPS nationwide. We calculated potential savings by
comparing actual preventive maintenance workhours with estimated maintenance
workhours. We collected the estimated preventive hours used in our analysis from
eMARS and the actual preventive hours from the National eMARS Reporting System.
We verified our methodology for calculating potential savings with the Maintenance
Technical Support Center (MTSC)6. We also electronically surveyed maintenance
managers7 to determine reasons for excessive hours and assessed best practices.

We relied on Management Operating Data System (MODS) End-of-Run reports8 and
did not test the reliability of our data. However, prior Engineering audits evaluating
preventive maintenance workhours revealed that MODS data was reliable at the plant
level.


6
  MTSC is an organization reporting directly to Engineering, Maintenance Policies and Programs.
7
  A total of 57 electronic surveys were sent to maintenance managers nationwide, of which 41 responded.
8
  Workload estimates generated by eCBM are based on MODS End-of Run data.




                                                        4
     Automated Package Processing System                                      DA-AR-10-003
      Equipment Maintenance Opportunities


     We conducted this performance audit from October 2009 through May 2010 in
     accordance with generally accepted government auditing standards and included such
     tests of internal controls as we considered necessary under the circumstances. Those
     standards require that we plan and perform the audit to obtain sufficient, appropriate
     evidence to provide a reasonable basis for our findings and conclusions based on our
     audit objectives. We believe the evidence obtained provides reasonable basis for our
     findings and conclusions based on our audit objective. We reviewed policies and
     procedures for internal controls and discussed our observations and conclusions with
     management officials on March 23, 2010, and included their comments where
     appropriate.

     PRIOR AUDIT COVERAGE

                       Report               Final Report     Monetary
 Report Title          Number                   Date          Impact            Report Results
Equipment            DA-AR-08-02        February 15, 2008   $11.6 million   The report disclosed
Maintenance                                                 for the year    facilities equipped with the
Opportunities                                               ending          Automated Facer
                                                            December        Canceller System did not
                                                            21, 2007 and    implement Production
                                                            $130 million    Based Maintenance (PBM)
                                                            over the next   guidelines. Management
                                                            10 years.       concurred with our finding
                                                                            and recommendations.
Delivery Bar         DA-AR-09-009           July 23, 2009   $8.2 million    The report disclosed
Code Sorter                                                 for FY 2008     nationwide facilities with
(DBCS)                                                      and $69.5       the DBCS were
Maintenance                                                 million over    approximately 84 percent
Opportunities                                               the next 10     compliant with PBM
                                                            years.          procedures. Management
                                                                            concurred with our findings
                                                                            and recommendations.




                                                     5
Automated Package Processing System                                                            DA-AR-10-003
 Equipment Maintenance Opportunities


                                   APPENDIX B: DETAILED ANALYSIS

Maintenance Hours Exceed eCBM Estimated Hours

eCBM requires that preventive maintenance be aligned with machine usage based on
throughput of mailpieces. Postal Service facilities nationwide equipped with APPS
exceeded eCBM estimates for preventive maintenance workhours by 57,067 and
28,891 for FYs 2008 and 2009, respectively. The greatest opportunity for excessive
workhours was in the Northeast, Capital Metro, Great Lakes, and Western Areas.

        Chart 1- Excessive APPS Maintenance Workhours by Postal Service Area9
 
                                                                                              Excess
                                                        Number of        Excess PM           Preventive
              Postal Service          Number of
                                                         Active          Workhours          Maintenance
                  Area                Facilities
                                                        Machines           FY 08            Workhours
                                                                                               FY 09
            Northeast                             13               14           17,471             6,845
            Capital Metro                          6                7            2,657             4,575
            Great Lakes                            8               10            4,413             4,286
            Western                                8                9            5,189             4,211
            Eastern                                8               10           14,565             3,547
            Southwest                              7                7            6,802             3,154
            Pacific                                7                8            3,049             1,690
            Southeast                              5                8            2,920               582

            Totals                                62               73           57,067              28,891

Causes and Impact of Excessive Maintenance Hours

We surveyed and interviewed Postal Service maintenance managers at facilities with
APPS machines to determine the causes for excessive maintenance. Twelve of 41
respondents cited eCBM checklists did not allocate enough time to complete tasks.
However, this cause is not corroborated by the 31 percent of facilities that completed
maintenance using the eCBM checklist during FY 2009. Therefore, the most frequent
causes cited by maintenance managers for excessive workhours were frequent
machine jams10 due to poorly culled mail and the inability in some cases to incorporate
the eCBM checklist. Additional causes, cited in Illustration 1, include:

          employees transposing corrective maintenance workhours with preventive
           maintenance workhours during timekeeping, and

          insufficient maintenance training.

9
    Excessive PM workhours, including totals, have been rounded to the nearest hour.
10
     Maintenance staff clears jams requiring access to a maintenance area. Operations clear all other jams.




                                                            6
Automated Package Processing System                                                           DA-AR-10-003
 Equipment Maintenance Opportunities


        Recurring shoe sorter11 failures.

                 Illustration 1. Causes Cited for Excess Maintenance Hours




                                                                           41 maintenance managers nationwide responded
                                                                               to survey questions relating to causes for
                                                                                         excessive workhours.




11
   A shoe sorter is the main transport module of the distribution subsystem, where the mailpiece is oriented and
diverted to one of the automated induction stations on APPS. The shoe sorter is comprised of a series of rolling slats
with sliding shoes on top.




                                                          7
Automated Package Processing System                                           DA-AR-10-003
 Equipment Maintenance Opportunities


During FYs 2008 and 2009, Postal Service facilities with APPS machines exceeded
estimated workhours by 85,958, at a cost of $3.5 million. Furthermore, we estimate
exceeding eCBM standard workhours will cost the Postal Service $2.4 million in
overtime over the next 2 years. See Appendix C for our detailed calculations.

Best Practices for Complying with Established Standards

During FY 2009, 19 of 62 of APPS sites (or 31 percent) expended fewer preventive
maintenance workhours than required by eCBM. In order to identify the particular
methods, best practices, and/or tools utilized by these sites, we judgmentally selected
six of the 19 sites to interview the respective maintenance managers. They noted the
following practices contribute to completing maintenance tasks in accordance with the
eCBM:

         Maintaining a well-trained, experienced, and highly motivated staff. This ensures
          that employees understand their roles and responsibilities.

         Coordinating with machine operators, their respective supervisors, and
          distribution operations to ensure APPS machines are operated according to
          specification and that the correct mail type is processed.

         Optimizing the maintenance window by generating eCBM checklists as early in
          the day as possible, and using maintenance staff in all three tours to complete
          tasks.

Corrective Actions Initiated To Date

The Postal Service has taken several steps to reduce excess maintenance hours. This
has contributed to the reduction in maintenance hours from FYs 2008 to 2009. They are
also in the process of incorporating additional initiatives to correct eCBM shortfalls and
improve eCBM support for APPS. In particular, the manager, Maintenance Policies, has
launched a Lean Six Sigma12 project to address eCBM tasks, which should ultimately
reduce waste when maintaining APPS machines. In addition, MTSC has issued an
APPS guide, dated November 2009,13 to provide refresher training and optimize the
performance of APPS. This guide also provides tools to address shoe sorter failures
and will formally be added to the preventive maintenance tasks in eCBM after a time
study and union review are complete. In addition, the MTSC plans to address eCBM
support for dual-sided APPS with plans to implement no later than September 30, 2010.
They plan to modify eCBM to generate separate routes for each side of APPS. These
efforts should result in improved resource allocation when maintenance managers issue
APPS work orders.


12
     Lean Six Sigma is a tool that makes business processes more efficient.
13
     FY 2010 APPS Holiday Readiness Review.




                                                      8
Automated Package Processing System                                                            DA-AR-10-003
 Equipment Maintenance Opportunities



                                   APPENDIX C: MONETARY IMPACTS


                                    Unrecoverable Questioned Costs14

                    FY08 Excess Preventive                                                         57,067
                    Maintenance Workhours
                    Overtime Labor rate                                                          $40.25
                    Questioned Costs                                                         $2,297,225

                    FY09 Excess Preventive
                    Maintenance Workhours                                                        28,891
                    Overtime Labor rate                                                          $41.52
                    Questioned Costs                                                         $1,199,454

              Total Unrecoverable Questioned Costs                                           $3,496,679

                                           Funds Put to Better Use15

                    FY 2010 Excess Preventive
                    Maintenance Workhours                                                        28,891
                    Overtime Labor rate                                                          $42.13
                    Overtime Cost Reduction                                                  $1,217,222

                    FY 2011 Excess Preventive
                    Maintenance Workhours                                                        28,891
                    Overtime Labor rate                                                          $42.15
                    Overtime Cost Reduction                                                  $1,217,656

              Total Funds Put to Better Use                                                  $2,434,878

              Total Monetary Impact
              (Questioned Costs and Funds Put to                                             $5,931,557
              Better Use)

Notes
          We based labor rates on the Postal Service’s FY 2008 and 2009 published rates for PS-09
           Electronic Technicians (ET)

          Funds put to better means the reduction in overtime from excess PM hours over the next 2 years.


14
     Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.
15
     Funds that could be used more efficiently by implementing recommended actions.




                                                            9
Automated Package Processing System                       DA-AR-10-003
 Equipment Maintenance Opportunities



                          APPENDIX D: MANAGEMENT’S COMMENTS




                                       10
Automated Package Processing System         DA-AR-10-003
 Equipment Maintenance Opportunities




                                       11
